LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 5, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE:

SAMUEL ANSTEY V. RALPH TERRY, SUPERINTENDENT, MOUNT OLIVE
CORRECTIONAL COMPLEX AND DAVID BALLARD, WARDEN, MOUNT OLIVE
CORRECTIONAL COMPLEX

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on November 5, 2020,
I caused service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020,
on the following counsel for the Respondents:
RESPONDENTS:
Lindsay Sara See
OFFICE OF THE ATTORNEY GENERAL
State Capitol Building 1, Room E-26
1900 Kanawha Boulevard, East
Charleston, WV 25305
304-558-2021
lindsay.s.see@wvago.gov
This service was effected by depositing one copy of a Petition for a Writ of Certiorari in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 5th day of November 2020.

